No.

IN THE SUPREME COURT OF THE UNITED STATES

FELIPE AMBRIZ-VALDOVINOS,
Petitioner,
-y-
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Title 18 United States Code ยง3006A(d)(6) and Rule 39 of this
Court, Petitioner Felipe Ambriz-Valdovinos, asks leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of fees or costs and to proceed in forma pauperis.

Petitioner is represented by counsel appointed pursuant to Title 18 United
States Code ยง3006A in the district court and on appeal to the Ninth Circuit Court of
Appeals.

Respectfully submitted,

Boatratline 4
Dated: June 17, 2021 HAEL Ss

Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900

San Diego, CA 92101-5008
Telephone: (619) 234-8467
Attorneys for Petitioner
